U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC

               RELEASE



            BUREAU OF THE CENSUS
     Actions to Address the Impact on the
      Accuracy and Coverage Evaluation
          of Suspected Duplicate Persons
            in the 2000 Decennial Census
           Inspection Report No. OSE-13812/March 2001




                           Office of Systems Evaluation

U.S. Department of Commerce                                                      Final Inspection Report OSE-13812

Office of Inspector General                                                                              March 2001




We shared our concerns with senior bureau officials during meetings held in January and
February 2001. We recommended that they provide an analysis of the likely impact of their
method for handling the reinstated person records. We also recommended that they ensure the
impact was considered in the bureau’s process for reviewing the A.C.E. and census results for
making a recommendation to the Secretary of Commerce about whether or not the census counts
should be statistically adjusted for redistricting. The bureau was responsive to our
recommendations. It has been preparing a chapter for the report supporting its recommendation
regarding whether or not to adjust entitled, Accuracy and Coverage Evaluation Survey: Effect of
Excluding “Late Census Adds,” and has already discussed the issue in the reports and analyses
supporting its recommendation. Our report documents the issues and concerns discussed in
those meetings and actions agreed to or taken by the bureau.


BACKGROUND

The Constitution mandates that a census of the nation’s population be taken every 10 years for
the purpose of congressional apportionment. Census data is also used for state redistricting and
the allocation of federal funds. Data from the decennial census provides official, uniform
information about the nation’s people and their social, demographic, and economic
characteristics.

In counting the population, the bureau relies on its Master Address File (MAF) to identify where
people reside. The address file built from the MAF for use in the census is termed the decennial
MAF. The quality of addresses maintained by the MAF directly affects the accuracy,
completeness, and cost of the decennial. To overcome the historic undercoverage of housing
units for the 2000 census, the bureau devised an inclusive approach for retaining addresses in its
file and also used a wider variety of sources to obtain these addresses. In our September 2000
report on the MAF, we found that this inclusive approach resulted in an unknown number of
duplicate addresses, which could cause duplicate enumerations. 3

During a decennial census, the Census Bureau attempts to count and gather information about
every resident in the country. However, in any decennial, some enumerations that should have
been excluded are included, and some portion of the population that should have been included is
missed. The first source of error leads to an overcount; the second, to an undercount. Every
census for which the effect of these errors has been systematically measured has shown a net
undercount—that is, the number of residents missed is greater than the number counted in error.
Studies going back to 1940 also show a net differential undercount for minority population
groups, meaning that minorities are missed at a higher rate than the white population. For 2000,
the bureau planned to measure coverage and reduce the differential undercount through the
A.C.E. 4 The A.C.E. is a statistical methodology based on an independent sample of the

3
    A Better Strategy is Needed for Managing the Nation’s Master Address File.
4
 “Accuracy and Coverage Evaluation; Statement of the Feasibility of Using Statistical Methods to Improve the
Accuracy of the Census 2000,” Federal Register, Department of Commerce, Bureau of the Census, June 20, 2000.


                                                          2

U.S. Department of Commerce                                               Final Inspection Report OSE-13812
Office of Inspector General                                                                       March 2001

population, which is then compared or matched with the census records to determine persons
missed and erroneous enumerations. The A.C.E. uses a process termed “dual system estimation”
to estimate the net undercount of various demographic subgroups of the population (called post-
strata) and to calculate the “coverage correction factors” which can be used to adjust the census
counts.

In designing and conducting the census and A.C.E., the bureau strives to balance two types of
error. One type, sampling error, occurs only in the A.C.E. Sampling error, which is quantified
by sampling variance, occurs because a sample is used to represent a population. The other type,
nonsampling error, occurs in both the census and the A.C.E. For nonsampling error, the bureau
is particularly concerned with systematic errors or biases. The most serious source of bias in the
census is coverage error, which results from people being missed or from erroneous
enumerations (including duplicate enumerations). The most notable example of this is the net
undercount, including the differential undercount. Bias can occur in the A.C.E. as a result of
errors in matching, errors in accounting for missing information, or other systematic errors in
collection or processing. Bias caused by systematically missing individuals in both the census
and A.C.E. is termed correlation bias. 5

The issue of whether statistical sampling could be used in the census was brought before the
United States Supreme Court, which ruled in January 1999 that such sampling could not be used
for congressional apportionment purposes. The Court did not prohibit the use of statistical
sampling for other demographic purposes, including redistricting.

The Secretary of Commerce is required by law to report redistricting data to the states within one
year after the decennial census date. For the 2000 census, the Secretary must report such data to
the states by April 1, 2001. By the end of February, the bureau had completed its internal
assessment of whether the A.C.E. should be used to adjust the census counts. An Executive
Steering Committee for A.C.E. Policy (ESCAP), consisting of 12 senior career bureau officials,
was responsible for reviewing census and A.C.E. data and preparing a report for the bureau
director recommending whether the adjusted or unadjusted census data should be used. The
ESCAP’s March 1, 2001, report recommended that the unadjusted data be released as the Census
Bureau’s official redistricting data because the information available at that time was insufficient
to conclude that the adjusted census data would be more accurate. The Acting Director of the
Census Bureau concurred with the ESCAP recommendation, and on March 6, 2001, the
Secretary decided that the unadjusted data would be used.




5
 “Accuracy and Coverage Evaluation; Statement of the Feasibility of Using Statistical Methods to Improve the
Accuracy of the Census 2000,” Federal Register, Department of Commerce, Bureau of the Census, June 20, 2000.


                                                      3

U.S. Department of Commerce                                                 Final Inspection Report OSE-13812
Office of Inspector General                                                                         March 2001

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this evaluation was to determine whether the bureau’s methodology for
handling the reinstatement of 2.4 million person records into the decennial census minimized the
impact on the accuracy and reliability of the A.C.E. This issue arose during our review of the
process used in the A.C.E. for automated person matching.

During January and February 2001, we briefed six members of the ESCAP regarding our
concerns and our recommendations for addressing them. Members whom we briefed included
the Associate Director for Decennial Census, who was the ESCAP chair, and the Assistant
Director for Decennial Census. Because these officials have already acknowledged our concerns
and agreed with our recommendations, we are issuing this report in final. This report documents
the issues and the bureau’s approach to addressing them. Bureau officials were given the
opportunity to review the report for technical accuracy. Where appropriate, their comments have
been incorporated.

We conducted our fieldwork between November 2000 and March 2001. We did not evaluate the
bureau’s process for removing duplicates or thoroughly review the analysis regarding these
issues in the documentation supporting the bureau’s recommendation.

This evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended.


OBSERVATIONS AND CONCLUSIONS

The Bureau Addressed Our Concerns About
the Effect of Reinstatements on the A.C.E.

Because of its concerns about address duplication, the bureau monitored the number of housing
unit addresses by comparing demographic benchmarks to the decennial MAF at several stages of
the decennial. By June 2000, some counties continued to show higher than expected coverage
when compared to the benchmarks. The bureau decided to conduct fieldwork in some of these
counties to investigate the problem. Using the April 2000 version of the decennial MAF, bureau
staff examined approximately 20,000 addresses and found that over 13 percent were either
duplicated (11.6 percent) or none xistent (1.5 percent). The bureau was sufficiently concerned
about address duplication and the resulting potential duplicate enumerations that in July 2000 it
began devising possible methods for identifying duplicates. 6

Special bureau operations involving address and person matching were developed and
implemented for the purpose of identifying and removing duplicate enumerations that remained
on the decennial file at the end of the census. The process was termed the Duplicate Housing
Unit Operations. Its design was not specified before the census, but rather was developed during
6
    Overview of the Duplicate Housing Unit Operations, Fay Nash, U.S. Census Bureau, November 7, 2000.

                                                        4

U.S. Department of Commerce                                                   Final Inspection Report OSE-13812
Office of Inspector General                                                                           March 2001

the census in response to the problem of duplication. The bureau acknowledged that this
operation made mistakes of both exclusion and inclusion, but believed it was necessary to avoid
seriously impairing the accuracy of the apportionment numbers. 7

Through the rules of this process, the bureau was able to identify 6 million persons in 2.4 million
housing units as potential duplicates. However, according to the bureau, there was not enough
time to resolve the status of suspected duplicates before the census file was needed to begin the
tightly scheduled A.C.E. matching and follow- up operations. In consultation with the bureau
official responsible for conducting the A.C.E., the bureau decided to provide to the A.C.E.
person matching operation a version of the census file that did not include the suspected
duplicated person records. The bureau’s rationale was that removing the suspected duplicates
from the A.C.E. matching process was better than retaining them because the model used to
calculate the adjustment works better with more accurate A.C.E. sample and Census 2000
counts. In addition, the bureau had a process for dealing with late census data and felt that any
reinstatements could be handled through this process. 8

After analyzing the suspected duplicates, the bureau removed approximately 1.4 million housing
units and 3.6 million persons from the census and reinstated approximately 1 million housing
units and 2.4 million persons into the census. Our review of the rules that the bureau used tends
to suggest that the reinstatements comprised primarily duplicate persons residing in
nonduplicated housing units. 9 The bureau’s goal was to delete only duplicate housing units, and
therefore duplicate persons in nonduplicated housing units were reinstated. The bureau worked
under the assumption that these duplicate persons were similar to those residing in housing units
known to be occupied but with unknown persons. In this instance, the bureau would have added
persons to households occupied by unknown persons through a statistical process termed whole
person imputation. In the case of the reinstated persons residing in nonduplicated housing units,
the bureau reasoned that these persons served as the imputations. The bureau also noted that all
of the reinstated person records represented less than 1 percent of the total population and that it
expected such records to be represented in the A.C.E. in about the same proportion.

The bureau’s memorandum documenting its process for incorporating late census data into the
A.C.E. evaluated four options for handling late additions and recommended the option that the
bureau deemed to be the most comprehensive and believed would avoid giving the appearance of
data manipulation. 10 According to the bureau, this option would not cause the expected value of
7
Report of the Executive Steering Committee for Accuracy and Coverage Evaluation Policy, U.S. Census Bureau,
March 1, 2001, p. 12.
8
    Treatment of Late Census Data for Accuracy and Coverage Evaluation Estimation.

9
 Specification for Reinstating Addresses Flagged as Deletes on the Hundred Percent Census Unedited File
(HCUF), DSSD Census 2000 Procedures and Operations Memorandum Series #D-11, Memorandum for Susan
Miskura, Chief Decennial Management Division, from Howard Hogan, Chief, Decennial Statistical Studies
Division, November 7, 2000, and Results of Reinstatement Rules for the Housing Unit Duplication Operations,
Memorandum for Preston J. Waite, Assistant to the Associate Director for the Decennial Census, from Susan M.
Miskura, Chief, Decennial Management Division, November 21, 2000, Attachment 2.
10
     Treatment of Late Census Data for Accuracy and Coverage Evaluation Estimation, p. 5.


                                                          5

U.S. Department of Commerce                                                         Final Inspection Report OSE-13812
Office of Inspector General                                                                                 March 2001

the results of dual system estimation to be biased if the reinstated person records met certain
assumptions. 11 Important among these is that the match rate for correctly enumerated reinstated
person records is the same as for the rest of the A.C.E. 12

Bureau officials stated that they did not have enough time to test whether the reinstated person
records conformed to the assumptions before they had to make the recommendation on whether
or not to adjust the census data; consequently, they could not demonstrate that their approach
caused little or no bias in the dual system estimates. The bureau acknowledged that the
reinstatements would contribute to variance in the estimates, thereby increasing the risk of
obscuring whether the A.C.E. estimates are more accurate than the census counts. Bureau
officials told us that although the specific variance caused by the reinstatements would not be
known by the ESCAP at the time it had to make its recommendation on whether or not to adjust,
this additional variance would be reflected in the total variance, an indicator that would be
known and that the ESCAP would consider in its deliberations.

Because the bureau did not plan to analyze the reinstated person records in any depth before the
recommendation on whether or not to adjust and did not have previous analysis documenting the
likely characteristics of such records, we became concerned about the bureau’s ability to defend
its assumptions about the effects of the reinstatements on the recommendation. Our concerns
were heightened because, as noted previously, our review of the rules that the bureau used tends
to suggest that the reinstatements comprised primarily duplicate persons residing in
nonduplicated housing units and because bureau officials told us that they suspected the
reinstatements were geographically clustered. 13 Because of these issues, we recommended that
the bureau provide written analysis to support its position that the reinstatements would
introduce little or no bias into the dual system estimate.

A related concern that we also raised was the number and impact of whole person imputations in
the census. This concern is related because these imputations are treated in the same way as the
reinstatements in the dual system estimate. At the end of the census, the bureau reported that
there had been approximately 5.7 million people added to the census count by imputation, more
than 2.5 times the number added in 1990. The imputations, along with the 2.4 million
reinstatements, totaled 8.1 million persons, about 2.9 percent of the population count. Given the
importance of an accurate census, we emphasized to senior census officials that the bureau
should be able to demonstrate whether the reinstatements, along with the imputations,
exacerbated overcoverage or masked undercoverage.

The Associate Director for Decennial Census agreed to ensure that the ESCAP would consider
our concerns in making its recommendation. In addition, the bureau official responsible for the
A.C.E., also an ESCAP member, agreed to conduct sensitivity testing of the assumptions and

11
     Expected value is an average of estimates derived from all possible samples.
12
 Accuracy and Coverage Evaluation: Data and Analysis to Inform the ESCAP Report, Howard Hogan, U.S. Census
Bureau, March 1, 2001, p. 52.
13
  According to the bureau’s demographic analysis, erroneous addresses occurred with greater frequency in certain
counties.


                                                            6

U.S. Department of Commerce                                                      Final Inspection Report OSE-13812
Office of Inspector General                                                                              March 2001

document the results. This analysis has been completed and is undergoing internal review by the
bureau. It will be published as a chapter of the report supporting the ESCAP’s recommendation
entitled, Accuracy and Coverage Evaluation Survey: Effect of Excluding “Late Census Adds.”

Importantly, the issues that we raised pertaining to the reinstatements and imputations were
considered in evaluation reports supporting the recommendation of the ESCAP, as well in the
ESCAP report itself. The principal analysis and discussions are presented in two reports, Report
of the Executive Steering Committee for Accuracy and Coverage Evaluation Policy and
Accuracy and Coverage Evaluation: Data and Analysis to Inform the ESCAP Report.

According to these reports, the ESCAP reviewed the evaluation report data, as well as other
information, and concluded that the key assumptions underlying the methodology for including
the reinstated person records in the A.C.E., such as match ratios for the correct enumerations,
could be expected to hold, although they would not hold perfectly. The ESCAP believed that the
measures available for assessing the effects of sampling variance and correlation bias would
include the effects of the treatment of late additions and whole person imputations. 14 However,
the ESCAP was concerned that geographic clustering of the reinstated person records and
imputations might have increased another type of error and further reviewed this effect.15 The
ESCAP concluded that the data did indicate some degree of geographic clustering within post-
strata and noted that it took these find ings into consideration when reviewing the results of the
adjustments.

Although we have not had the opportunity to thoroughly review the analysis supporting the
bureau’s decision regarding error added by reinstatements, we believe that the bureau’s actio ns
were responsive to our concerns and recommendations in the short time frame available for
reviewing the data and making the recommendation on whether or not to adjust. The bureau
plans to perform further evaluation studies to assess the impact of the reinstatements and
imputations.

We believe that such studies are appropriate to better understand both the impact on dual system
estimation in the 2000 Decennial Census and the impact of similar late data requirements in
future censuses and surveys since dual system estimation is an important bureau methodology
for measuring data quality. Further, to help avoid similar problems with the address file in the
future, we reaffirm the recommendations presented in our MAF report regarding approaches for
addressing housing unit overcoverage and undercoverage.

Should you have any questions regarding this report, please contact me at (202) 482-4661 or
Judith Gordon, Assistant Inspector General for Systems Evaluation, at (202) 482-5643. We
would like to thank Census Bureau headquarters staff for the cooperation and courtesies
extended to us during our review.

cc: Lee Price, Acting Under Secretary for Economic Affairs

14
     Report of the Executive Steering Committee for Accuracy and Coverage Evaluation Policy, p. 26.
15
  This type of error is referred to as synthetic error and is related to the distribution of the measured net undercount
to local areas and demographic subgroups.

                                                           7

